                                                I
      Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERAL




    MEDICAID PAYMENTS TO INSTITUTIONS

         FOR PEOPLE WITH MENTAL

               RETARDATION





I              -JUNE 1993   OEI-O4-91-O1O1(I
1
              EXECUTIVE                          SUMMARY


PURPOSE

To determine the extent and causes of variation among States in per resident
Medicaid reimbursement rates for large intermediate care facilities for people with
mental retardation.

BACKGROUND

“IntermediateC are Facilities for the Mentally Retarded” (ICF/MRs)areMedicaid
funded State or privately-run facilities for people with mental retardation or other
developmental disabilities. Large ICF/MRsarethose        with over 15 beds andare
traditionally referred to as institutions. Seventy percentof all residents oflarge
ICF/NIRsarein      State-run facilities.

To be certified to receive Medicaid reimbursement, ICF/MRs must annually meet 489
Federal standards. The standards require that ICF/MRs provide 24-hour health care
and continuous individualized training for residents. Federal Medicaid rules for
reimbursing States for ICF/MRs are not clearly defined. Each State, therefore, defines
the rules independently.

The preferred treatment setting for people with mental retardation has shifted from
large ICF/MRs to community-based care. Yet, in 1991 estimated Medicaid spending
(including State and Federal shares) for large ICF/MRs reached $6.7 billion for
approximately 110,000 residents. The average annual Medicaid reimbursement to
large ICF/MRs was $61,000 per resident. Eight percent of Medicaid dollars are spent
on 0.4 percent of Medicaid recipients who still reside in large ICF/MRS.

We analyzed factors which affect per resident Medicaid reimbursement      rates for large
ICF/MRs in a stratified random sample of 22 States.

FINDINGS

Medicaid reimbumement    rates for la~e ICF/h4Rsare more than jive times greater in some
States than in others

The average annual per resident Medicaid reimbursement       for large ICF/MRs ranged
among States from $27,000 to $158,000 in 1991.

State Policia account for variation in ICF/A4R Medicaid reimbumernent rates among
States, rather than qu.ulity of service, facility chamctektics, or r&t demographics

The significant factors which cause some States to pay higher rates than others are
State rate-setting methods, high wages paid to State employees, higher staff-to-resident


                                             1
ratios, and newer facilities. States with lower reimbursement rates generally had
included, in their rate-setting methodology, caps on costs or efficiency incentives to
control costs.

Wide variation in reimbursement rates is not due to differences in quality or level of
service at facilities, as measured by ICF/MR certification standards. Facility
characteristics, such as occupancy and size, and resident demographics, such as level of
retardation, also did not account for the differences in rates among States.

tick   of @ective   controls results in excessive spending

Overstaffing and exorbitant spending for buildings and grounds occur at ICF/MRs in
some States because Medicaid reimbursements are not effectively controlled.

RECOMMENDATIONS

HCFA shouid take action to reduce excessive spending of Medicaid @u&for       ICFM2s.

HCFA can accomplish this objective in several ways, including one or more of the
following.

HCFA can take administrative action to control ICF/MR reimbursement under
current authorities. HCFA can encourage States to adopt cost controls, strengthen
Federal rate-setting guidelines and provide technical assistance to States to help them
adopt effective controls.

HCFA can seek legislation to control ICF/MR reimbursement.        Legislative options
include mandatory cost controls, a Federal per capita limit, a flat per capita payment,
a case-mix reimbursement, and a national ceiling for ICF/MR reimbursements.

HCFA can seek comprehensive legislation to restructure Medicaid reimbursement for
both ICF/MR and Home and Community-based waiver services for developmentally
disabled people. Restructuring could include global budgeting, block grants, and
financial incentives.

We expect considerable savings to the Medicaid program depending on what option
HCFA pursues. For example, we estimate that $683 million in Federal and State
Medicaid funds could have been saved in 1991 by only capping costs.

AGENCY COMMENTS

The Assistant Secretary for Planning and Evaluation (ASPE) and HCFA commented
on the report. ASPE concurred with the recommendations.      While HCFA did not
dispute our findings, they did not concur with the recommendations because they
considered that the Medicaid statute and regulations allow them little discretion in
imposing additional controls to curb ICF/MR payments. Further, HCFA stated that


                                                  ii
any legislative changes should be considered within the framework of national health
care reform, which is still being developed.

We continue to believe that HCFA should take action to control ICF/MR
reimbursement.     We have documented excessive Medicaid spending. Prudent
management of Federal resources for ICF/MRs is important and will continue to be so
under upcoming health care reform. Therefore, controls over unnecessary Medicaid
spending should not be delayed. As we recommended, HCFA certainly can encourage
States to adopt effective cost controls, can strengthen rate-setting guidelines, and can
develop legislative proposals to control payments for ICF/MRs.




                                           ...
                                           111
                       TABLE                     OF CONTENTS




EXECUTIVE         SUMMARY


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    Wide Variation In Payment Rates                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


    Reasons For Variation               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


    Lack Of Effective Controls Results In Excessive Spending                               . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


AGENCY COMhmm’’s                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13


ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


APPENDICES


/bibliography     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B: Methodology         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C. Regression Results          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l


D: Savings Calculation           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-1


E   Agency Comments            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..E-1

                           INTRODUCTION

PURPOSE

To determine the extent and causes of variation among States in per resident
Medicaid reimbursement rates for large intermediate care facilities for people with
mental retardation.

BACKGROUND

What is an ICF/MR

“Intermediate care facilities for the mentally retarded” (ICF/MRs) are State and

privately-run facilities for people with mental retardation. The Health Care Financing

Administration (HCFA) recognizes two categories of ICF/MR facilities. Those with 4

to 15 beds may be located in community settings and are generally referred to as small

ICF/MRs. Large ICF/MRs are those with over 15 beds. Across States, large

ICF/MRs average 160 residents per facility and are traditionally referred to as

institutions. State-run ICF/MRs are generally much larger than private ICF/MRs.

Seventy percent of all residents of large ICF/MRs are in State-run facilities.


Both State-run and private ICF/MRs must demonstrate annually that they meet

Medicaid’s conditions of participation. There are 8 conditions or categories of rules

encompassing 489 standards that facilities must meet to be certified. The standards

require that ICF/MRs provide 24-hour health care and continuous, individualized

training programs for their residents. States conduct annual surveys to assure the

requirements are met and are required to inform HCFA of any deficiencies.


Who is served in ICF/MRs

People with mental retardation and related conditions are sewed in ICF/MRs.
Medicaid guidelines refer to mental retardation as significantly subaverage general
intellectual functioning existing concurrently with deficits in adaptive behavior and
manifested during the developmental period. Persons with related conditions have
severe, chronic disability that is attributable to cerebral palsy, epilepsy, autism, or any
other condition closely related to mental retardation; is manifested before a person
reaches age 22; is likely to continue indefinitely; and results in substantial functional
limitations in at least three of six major life activities. The six activities are self-care,
understanding and use of language, learning, mobility, self-direction, and capacity for
independent living. The terms mental retardation or related conditions and
developmental disabilities are generally used interchangeably. Over 90 percent of
people with developmental disabilities who are receiving services are mentally
retarded.
How are ICF/iWRS jimded

In 1971, the Medicaid program wasamended toprovide Federal reimbursement to

States forcaring forpeople tithmental      retardation liting in institutions. Previously,

these institutions were financed solely by State, local and private funding. Over half of

the States applied to participate the first year. All States now have Federally-funded,

certified ICF/MRs.


In 1980, via the Boren amendments, Congress made significant changes in the

provisions for Medicaid reimbursement of long-term care facilities, including ICF/MRs.

The amendments direct States to pay all long-term care facilities on the basis of rates

which States assure are “reasonable and adequate to meet the costs which must be

incurred by efficiently and economically operated facilities...”. Congressional intent

behind the amendments was to give States more flexibility in developing rates, but not

to allow them to develop rates solely on the basis of State appropriations.*


Federal Medicaid rules for reimbursing States for ICF/MRs are not tailored

specifically to ICF/MR operations and are not clearly defined. Federal regulations do

not precisely define “reasonable costs” or “efficiently and economically operated

facility.” Each State, therefore, is allowed to define these terms independently.


The Federal regulations which address allowable costs and upper payment limits

require States to assure that the estimated average payment for ICF/MRs does not

exceed, in the aggregate, the amount that can “reasonably” be estimated would have

been paid for the same services under Medicare principles of reimbursement.    The

Medicare law and guidelines specify that reimbursement must be based on the

“reasonable cost” of semices covered under the program and must be related to

patient care. Although ICF/MRs are not reimbursed under the Medicare program,

States are required to apply the Medicare principles and assure HCFA that they are

only reimbursing providers for “reasonable costs” incurred in providing care.


What are the trends in serving people with developmental   disabilities

The preferred setting for treating people with developmental disabilities has shifted
from institutional to community-based care. A number of studies have shown that
clients with developmental disabilities make better progress toward independent
functioning in community rather than in institutional settings. 2 Accordingly, the
Federal goal for people with developmental disabilities is to enable independence,
productivity and community integration .3 This goal was most recently reiterated in
the Developmental Disabilities Assistance and Bill of Rights Act of 1990. Since the
ICF/MR program began 20 years ago, institutions have not only improved conditions
in their facilities, but have discharged many residents who could live in a less
restrictive community setting. Appendix A gives a bibliography of relevant studies.

In 1981, Medicaid was amended to permit waivers for home and community-based
(HCB) semices. Under HCB waivers, States may provide semices in a community


                                             2
setting for persons who would othenvise be treated in an ICF/MR, if the average
Medicaid cost per person is the same or less. Reimbursement for HCB care is cost-
based, as it is for ICF/MRs. However, HCFA limits the number of people that States
may serve under HCB waivers. Incentives in the current reimbursement system are in
conflict with the Federal goal of community integration.

What   are the present erpenditum   for knge ICF/M&

Despite the policy shift toward community-based treatment, most Federal Medicaid
funds for people with developmental disabilities continue to be spent on large
ICF/MRs. In 1991, States’ average annual expenditure in large ICF/MRs was ...



                                    $61,000 per resident


Further, ICF/MR expenditures have been one of the fastest growing elements of the
Medicaid program. Total Medicaid expenditures for large ICF/MRs have more than
doubled over the last decade. Over the same period, th~ population in those
institutions has steadily declined -- reduced by 28 percent in the State-run facilities
alone. In 19914, estimated Medicaid expenditures (including State and Federal
shares) for both State-run and private, large ICF/MRs reached ...



                             $6.7 Billion for 110,000 Residents              1


The chart belo# illustrates the disproportionate share of Medicaid dollars spent on
people with developmental disabilities who still reside in large ICF/MRs.

8% of Total Medicaid Dollars                        0.4% of Total Medicaid Recipients




                                                                            04%




                                              3

We examined factors which affect per resident reimbursement rates for large
ICF/MRsin22     States. Weoriginally selected 24 States through stratified random
sampling, but dropped 2 that did not respond to our survey.

We suxveyed Medicaid agencies in each of our sample States to obtain current
(1) Medicaid reimbursement rates for each large ICF/MR, (2) rate-setting methods,
and (3) ICF/MR expenditures, including average wage, percent of State central office
overhead costs allocated to an ICF/MR, and capital expenditures. We obtained
resident and facility characteristics from HCFA’S On-line Survey and Certification
Reporting System (OSCAR).

To determine the extent of reimbursement rate variation among States, we compared
the average facility per diem rates as reported to us by State Medicaid agencies.

To determine causes of variation among States in reimbursement rates, we performed
a stepwise regression analysis using only State-run facilities. We examined 24 factors
or independent variables pertaining to (1) facility characteristics, (2) resident
demographics, and (3) State reimbursement policies. We used the SAS (Statistical
Analysis System) software program to perform the stepwise regression.

We completed site visits to 15 ICF/MR facilities in 7 States. In each State we selected
at least one State-run and one privately-run large ICF/MR, where available, to
determine how ICF/MRs are using Medicaid dollars. We interviewed staff at State
Medicaid agencies and State Developmental Disabilities agencies. Appendix B gives a
detailed description of the methodology.

our review was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                                      FINDINGS


MEDICAID REIMBURSEMENT                                          RATES FOR LARGE Ic’F_   ARE MORE
THAN FIVE TIMES GREATER                                        IN SOME STATES THAN IN OTHERS

Average Medicaid reimbursement in 1991 for large ICF/MRs ranged among States
from $27,000 to $158,000 per resident. In 1991, the average reimbursement for all
large ICF/MRs was $61,000 per resident. The following chart illustrates widely varying
State average annual per resident reimbursement rates for both private and State-run
large ICF/MRs combined.


                        Annual              Per Resident  Reimbursement                                      Rate
                                                  By State, 1991


           Over
        $100,000

                     ....................   ................... ..
         $90,000

                     ....................   ......................                  ....................................................................
         $80,000

                     ....................                                           ....................................................................
         $10,000 r

                                            .......




                                                                 22 Sample States




                                                                        5

. ..—.   —~       .




~ATE POLICIES ACCOUNT FOR VARIATION IN ICF/MR MEDICAID
REIMBURSEMENT   RATES AMONG STATES, W4THER THAN QUALITY OF
SERVI~  FACILITY c’HAIWC193RISTICS OR RESIDENT DEMOGRAPHICS

We examined characteristics of ICF/MR facilities and their residents, such as size of
facility and severity of disability, because we expected these factors to significantly
affect ICF/MR reimbursement rates. Further, in general discussions, we were
frequently told that variation in rates was due to differences in quality or level of
semice. We found that State reimbursement policies caused most of the variation,
however, not quality of care or facility and resident characteristics.

State Policies Account for Most Variation in ICF/MR Medicaid Reimbursement            Rates
Among States

The most significant causes of variation in lCF/MR Medicaid reimbursement rates
were rate-setting methods, wages, and staff-to-resident ratio. The age of a faciliw also
caused significant variation in reimbursement rates. Based on our regression analysis,
these factors explain 75 percent of the variation in reimbursement rates. These
factors are controllable by States.

Rate-setting Methods

Federal Medicaid law and regulations       require States to describe the rate-setting
method in their Medicaid State Plans,      but do not specify what that method will be.
Not surprisingly, States employ widely     different methodologies. Our analysis showed
that State reimbursement rate policies      accounted for variation in rates. States with the
lower rates

 �
          apply limits or caps on costs in calculating reimbursement   rates,

 �
          give efficiency incentives to encourage cost control,

 �
          do not reimburse based on a minimum occupancy, and

 �	
          have a lower proportion of State central office overhead costs allocated to
          individual ICF/MR budgets.

 States that use caps may apply them to specific cost centers (e.g., maintenance.

 dietary, routine services) or to aggregate costs. Frequently, a cost center cap is set by

 (a) ranking all the ICF/MRs based on their reported costs in that cost center, and

 (b) selecting a level for the cap. For example, one State caps the cost centers for

 administration, room, and board at 110 percent of the median costs of all large

 ICF/MRs in the State.


 In addition, some States give facilities an incentive to keep costs down. For example,

 facilities were allowed to keep a poruon of the difference between their actual costs



                                                6
and the allowed amount under specific caps. The amount of the efficiency incentive
ranged from 10 to 75 percent.

Some States reimburse facilities based only on actual patient days. Other States base
reimbursements on a minimum occupancy, generally 80 or 90 percent of capacity, if
actual patient days are less. States that do not use a minimum occupancy adjustment
have lower reimbursement rates.

States allocate a portion of State-level administrative costs to the ICF/MRs. The
percent of reimbursement for State administrative costs ranged from less than 1 to 12
percent. Those States with a smaller proportion of State administrative costs allocated
to ICF/MR facilities had lower reimbursement rates.

Wages

The wage level of ICF/MR employees was a very influential factor affecting
reimbursement rates. The lower the wages, the lower the reimbursement rates. The
large State-run ICF/MRs we examined are staffed with State government employees;
therefore, the wage levels are determined by the State rather than the facility.
Average annual wage, including fringe benefits, for direct care workers at State-run
large ICF/MRs ranged from $14,000 for the State with the lowest average
reimbursement rate to $47,000 for the State with the highest rate.

Staff-to-Resident   Ratio

A major expense for ICF/MRs is their staff. The number of staff each facility employs
and how much they are paid strongly influences what a facility’s reimbursement rate
will be. Our analysis confirmed that ICF/MRs with lower staff-to-resident ratios have
lower rates. In one of the States with high reimbursement rates the staff-to-resident
ratio was three to one, while in a State with a lower rate the ratio was one to one.

Facility Age

The final factor that our regression analysis showed had a statistically significant

influence on reimbursement rates was age of the facility. We used the date each

facility was certified to participate in the ICF/MR program as a proxy for age. The

older its certification date, the lower its rate. This may be due to the way States

reimburse ICF/MRs for capital costs. For example, in one State, capital costs for its

newer facilities resulted in higher reimbursement rates.


Wide Differences in ICF/MR Reimbursement Rates Are Not Due to Quality of

Service, Facility characteristics, or Resident Demographics


We included characteristics of ICF/MR facilities and their residents, such as size of

facility and severity of disability, in our regression analysis because these factors could affect




                                              7

ICF/MR reimbursement rates. Such variables, however, were not statistically
significant; that is, they did not account for the wide differences in reimbursement
rates among States.

Quality and Level of Service

Quality and level of service as measured by ICF/MR certification standards did not
cause wide variation in reimbursement rates. All facilities in our sample had passed
their most recent annual sumeys and been certified as having met the Federal
operating and program standards. The 489 standards by which ICF/MRS are
evaluated are the only measure of quality used to authorize or deny payment of
Medicaid funds. Although it is difficult to measure quality, HCFA’S quality of care
standards require that each (1) resident receive continuous active treatment according
to a detailed, individualized training plan, aimed at increasing independence, and (2)
facility meet specified management, staffing, treatment, client rights, health, diet, and
safety requirements. Since 1988, Federal guidance has directed State surveyors of
ICF/MRs to focus on implementation of the active treatment requirement.

Our regression analysis showed that level and quality of service, as measured by
ICF/MR certification standards, did not significantly affect reimbursement rates.
Further, our on-site visits to 15 lCF/MRs in 7 States confirmed this finding. We
observed little difference in quality and level of care in facilities with the highest rates
and those with the lowest.

Facility Charactetitics

Our regression analysis showed that the following facility characteristics of the

ICF/MRs were not significant in explaining the wide variation in reimbursement         rates.


.       size, as measured by number of residents

.       percent of employees in direct care

�
        number of discrete living units

�
        occupancy rate (number of beds divided by number of residents)

�
        percent of all beds in a facility that are ICF/MR-certified


Resident Demographics

For each ICF/MR, we included in our regression analysis the percent of residents


�
        with profound retardation,

.       over age 65,

�
        under age 22,

�
        who are blind or deaf,

�
        who are nonambulatory.

�
        attending off-campus day programs, and

�
        using medication to control behawor.



                                              8
None of these resident characteristics had a statistically significant effect on the wide
variation among States in reimbursement rates. For example, differences among
States in the proportion Of residents who are nonambulatory or profoundly retarded
did not account for the wide variation in reimbursement rates.

Appendix C contains details of the results of the regression analysis.

LACK OF EFFECTIVE          CONTROLS RESULTS IN EXCESSIVE                 SPENDING

Although some States have established effective controls and have lower

reimbursement rates, in other States ICF/’MR reimbursement rates may have exceeded

a level necessary to provide required care. In the 15 ICF/’MRs we visited, the

prevailing attitude is that funding is not a problem. In an era when most Medicaid

providers are being cut back and States are faced with budget shortfalls, virtually all

ICF/MR administrators said they have sufficient funds. As one State administrator

commented, any request for funds 1s rubber stamped, even if it is excessive.


States place fewer controls, in particular, on their State-run large ICF/MRs than on

their other Medicaid providers. For example, all States apply limits or caps on costs

when setting reimbursement rates for their nursing homes and 78 percent of States

cap costs for their private ICF/’NfRs. Yet, only a third of the States use such cost

control methods when setting reimbursement rates for their State-run ICF/’MRs.

Across States, the average, annual, per resident reimbursement for State-run large

ICF/MRs ($77,000) is almost double the average for large private ICF/MRs ($42,000).

Furthermore, in the privately-owned lCF/MRs we visited, cost controls had not forced

cuts in services; rather, they had forced the ICF/MRs to operate more efficiently.


In some of the 15 facilities we visited, we observed the products of uncontrolled.

excessive reimbursements, notably in staffing and buildings and grounds. In one State

that has a high reimbursement rate, a State program official said that they were

spending dollars on staff and buildings with no attendant improvement in quallty of

care.


staffing

In some facilities with higher-than-average reimbursement rates, the average staff-to-
resident ratio is 50 percent higher than the national average. Further, our analysls Of
annual Medicaid survey data shows that the more employees per resident a facll]ty
has, the lower the percent of staff there are in direct care. For example, in one hlgh­
cost facility, an administrator commented that their four-fold increase in recordkeepmg
staff had not increased resident care.

In the States we visited, those with the highest reimbursement rate not only hire more
staff, but hire professionals with ~d~anced degrees to do the same jobs that are being
done effectively by skilled staff without t’ormal degrees in States with lower ra[es.
Some States, for example, use volunteer foster grandparents while others employ full-


                                              9
time degreed professionals to supemise residents when they are not engaged in formal
training routines,

Extra staff does not necessarily improve resident outcomes. Outcomes are less
affected by numbers of staff, than how they are deployed. Our analysis shows virtually
no correlation between staff to resident ratios and the number of deficiencies on
annual certification surveys. At one ICF/MR, we were told that correction of most
certification deficiencies requires better management of staff, not added staff. The
administrator at another ICF/MR commented that if staff do everything for residents,
prepare food, do laundry, etc., as is done in large institutions, residents do not have
the opportunity to develop independent living skills.

Buildings And Grounds

As shown by the following illustrations, Medicaid funds are used to help maintain large
and sometimes exorbitant ICF/MR buildings and campuses.

�
       Two of the 15 ICF/MRs we visited maintain what they called hospitals on
       campus. The hospitals were fully staffed with physicians and nurses, yet surgery
       and inpatient care are obtained at nearby community hospitals.

�	
       Another ICF/MR that was slated to close in 3 years is building a $7.2 million
       food service building.

�	
       At another ICF/MR major renovations to dormitory buildings are undenvay
       despite plans for closure in a few years.

�	
       Many ICF/MRs maintain hundreds of acres of grounds which in some cases are
       used for recreational activities by the neighboring community, more than by the
       ICF/MR residents.




                                           10

                    RECOMMENDATIONS


HCFA SHOULD TAKE ACTION TO REDUCE                   EXCESSIVE SPENDING OF
MEDICAID FuNDS FOR ICF~S.

HCFA can accomplish this objective in several ways, including one or more of the
following.

HCFA can take adrninistrotive action to control ICFIMR reimbunement under current
authon”ties. Conceivably, administrative controls can forestall a need for legislative
action. However, HCFA should take administrative actions in the interim even if it
chooses to develop legislative proposals. Following are examples of specific
administrative actions.

       Administrative Cost Controls: Encourage States to adopt effective cost controls
       for ICF/MRs. HCFA can do so by: strengthening Federal rate-setting
       guidelines, such as those on upper payment limits; periodically producing a
       compendium of cost containment mechanisms successfully used by States to
       control ICF/MR expenditures; and providing technical assistance to State
       Medicaid agencies to help them adopt methods used by other States with
       effective controls.

HCFA
 can seek legislation to control ICF/ikfR reimbursement.   Following are several
examples of legislative options.

       Mandato~ Cost Controls: Require States to implement effective cost control
       mechanisms in their ICF/MR rate-setting methodology as a condition for
       receiving Federal financing. The legislation could specify the kinds of controls,
       such as caps on costs, or efficiency incentives.

       Federal Per Capita Limit: Limit Federal financial participation for each
       resident of an ICF/MR. The Federal government would match State payments
       up to a maximum amount per resident. State expenditures beyond that amount
       would not be eligible for Federal matching payments.

       Flat Per Capita Payment: Set a specific Federal per capita payment amount
       for residents of ICF/MRs. States would receive a flat amount for each resident
       of an ICF/MR regardless of how much States spend. In addition to helping
       control Federal expenditures, this would allow States to budget for Federal
       funds based on their institutionalized developmentally disabled population.

       Case-mix    Reimbursement:    Develop a reimbursement system for      residents of
       ICF/MRs     based on the functioning level of the residents and the   level of care
       provided   to them. Specific payment amounts would be based on         a facility’s
       case mix   of residents and the programs being provided for them.       This option


                                            11
       would refine the typical State reimbursement methodology which reimburses
       facilities at the same rate per resident regardless of residents’ needs or level of
       care being provided.

       National (Ming for ICF/MR Reimbursemenfi:      Cap total Federal
       reimbursements for ICF/MR services. States would be allocated a sPecific
       amount under the cap regardless of any State program changes.

HCFA can seek comprehensive legislation to restructure Medicaid reimbunement for both
ICFIMR and Home and Communip-based        (HCB) waiver services for developmentally
disabled people. Restructuring would combine institutional and community-based
Medicaid      expenditures under one authority and remove the current reimbursement
incentive    that favors institutional over community spending. HCFA could expand one
or more     of the ICF/MR-specific options listed above to include community-based care
or select   one of the following broad legislative options.

       Global Budgeting for Developmentally Disabled Recipients of Medicaid
       Setices:   Combine all Federal ICF/MR and HCB waiver funding under one
       authority. To compute the amount of Federal funds each State would receive,
       HCFA could negotiate a dollar cap with the States.

       Block Grants: Provide a grant to each State for operating institutional and
       community-based programs for its developmentally disabled citizens. This
       option offers States flexibility; however, the legislation should assure that
       Federal program requirements continue to be enforced.

       Financial Incentives: Offer States financial incentives to move residents out of
       institutions and into lower cost community-based care. An incentive system is
       consistent with existing Federal program policy preferences for community-
       based care. The program would be structured to ensure that savings from
       more cost efficient operations exceed the amount of incentives offered.

The above options are not intended to be an all inclusive list for reducing excessive
spending for ICF/MRs. However, we estimate considerable savings to the Medicaid
program from implementing one or more of the suggested options. To illustrate, we
estimate that $683 million in Federal and State Medicaid funds could have been saved
in 1991 by implementing only the cost control method of capping costs. Potential
savings from implementing other options would depend on how the options are
implemented. For example, if a Federal per capita limit for ICFNRS were set at no
more than the current average annual reimbursement rate of $61,000, we estimate
$565 million in Federal and State Medicaid funds could have been saved in our
sampled States in 1991. Appendix D shows how we estimated savings.




                                              12

                    AGENCY                COMMENTS


We circulated the draft report for comment to the Administrator of the Health Care

Financing Administration (HCFA), the Assistant Secretary for Planning and

Evaluation (ASPE), and the Assistant Secretary for Management and Budget (ASMB).

Appendix E shows the full text of the comments provided by ASPE and HCFA.

ASMB did not comment on the report.


The ASPE concurred with our recommendations but expressed concern that they

could appear to some readers of the report as an unfounded attempt to reduce total

spending on behalf of people with mental retardation. To clarify, our

recommendations are targeted to reduce only excessive spending which we found does

not affect the quality of care for residents of ICF/MRs. In response to ASPE’S

technical comments, we made changes to clarify our information where necessary.


The HCFA did not dispute our report findings but did not concur with our

recommendations.     They stated that the Medicaid statute and regulations allow little

discretion in imposing additional administrative controls to curb ICF/MR payments

and that legislation would be needed to implement the other options we

recommended.      Further, HCFA stated that any legislative changes should only be

considered as part of the Administration’s national health care reform, which is still

under development.


We continue to believe HCFA should take action to control reimbursement and

ensure that Medicaid payments for lCF/MRs are reasonable. We have documented

unnecessary Medicaid spending at ICF/MRs. HCFA certainly can encourage States to

adopt effective cost controls for lCF/MRs, can strengthen rate-setting guidelines, and

can develop specific legislative proposals and submit them for Departmental review.

We believe prudent management of Federal resources for ICF/MRs is important and

will continue to be so under the Admlnlstration’s upcoming national health care

reform. Therefore, controls over unnecessary Medicaid spending should not be

delayed, particularly during this perwd of financial crisis for the Medicaid program.





                                            13

                                     ENDNOTES


1. House Report No. 96-1479 (p. 154) on H.R. 7765, the “Omnibus Reconciliation
Act of 1980,” Section 962 of P.L. 96-499.

2. See Bibliography for exact citations of studies conducted by Conroy, and Bradley;
Nerney, Conley, and Nisbet; and Moscovitch. These are just a few of the studies on
this issue. Many more are cited in the report by Robert Helms, Assistant Secreta~
for Planning and Evaluation.

3. In the 1990 reauthorization of the Developmental Disabilities Assistance and Bill of
Rights Act, one of the stated purposes of the law is, “to enable [persons with
developmental disabilities] to achieve their maximum potential through increased
independence, productivity, and integration into the community.” 42 U.S. C., section
6000, (b)(l).

4. To estimate total 1991 Medicaid expenditures, we multiplied the average
reimbursement per resident, obtained from our State survey, by the number of
residents in ICF/MRs over 15 beds. The latest available data for residents in facilities
over 15 beds is 1990 -- 110,548. The resident data was obtained from the Recurring
Data Set Project of the Center for Residential Services and Community Living,
University of Minnesota, K.C. Lakin. We reduced the 1990 figure and used 110,000 as
an estimate for 1991, a conservative reduction of 0.5 percent.

5. To calculate the percentage of total Medicaid dollars and recipients attributable to
large ICF/MRs, we referred to HCFA’S Form 2082 which reports the total vendor
payments and total recipients for all Medicaid for Fiscal Year 1991. We then divided
the expenditure and recipient figures we use in the report for large ICF/MRs ($6.7
billion and 110,000, respectively) by the Medicaid totals from the HCFA Form 2082.




                                           14

                            APPENDIX                 A


                                  BIBLIOGRAPHY


       Braddock, David. Federal Policv toward Mental Retardation and
Developmental Disabilities. Baltimore, Md.: Paul H. Brookes Publishing Co., 1987.

       Braddock, David, Hemp, Richard, Fujiura, Glenn, Bachelder, Lynn, and
Mitchell, Dale. The State of the States in Developmental Disabilities. Baltimore,
Md.: Paul H. Brookes Publishing Co., 1990.

       Braddock, David, Hemp, Richard, and Fujiura, Glenn. “National Study of
Public Spending for Mental Retardation and Developmental Disabilities,” American
Journal of Mental Deficiency, 1987, vol. 92, No. 2, pp. 121-133.

        Boggs, Elizabeth M. “Legal, Legislative, and Bureaucratic Factors Affecting
Planned and Unplanned Change in the Delivery of Services to the Mentally Retarded”
in Begab, Michael J., and Richardson, Stephen A., eds. The Mentallv Retarded and
Societv: A Social Science Perspective. Baltimore, Md.: University Park Press, 1975.

       Conroy, J. W. and Bradley, V. J. (1985). The Pennhurst Longitudinal Studv: A
re~ort of five vears of research and analysis. Philadelphia: Temple University
Developmental Disabilities Center. Boston: Human Services Research Institute.

        Conroy, J. W., Dickson, M. M., and Lemanowicz, J. A. Pennsylvania Waiver
Evaluation: Results of the Independent Assessment of Pennsylvania’s Home and
Communitv-Based Services Waiver Pro~ram in the Area of Mental Retardation.
Philadelphia: Temple University Developmental Disabilities Center/UAP, Research &
Quality Assurance Group, July 1989.

      Ellis, Norman and Bray, Norman, eds. International Review of Research in
Mental Retardation. Orlando, Florida: Academic Press, Inc., 1984.

        Helms, Robert B., Chairman and Assistant Secretary for Planning and
Evaluation. Renort from the Workinu Group on Improving Public Policies and
pro~rams Affectin~ Persons with Mental Retardation and Other Developmental
Disabilities, Washington, D. C., U.S. Department of Health and Human Services,
December 1988.

       Lakin, K. Charlie, et al. “Longitudinal Patterns in ICF/MR Utilization, 1977-
1986,” Mental Retardation, 1989, Vol. 27, No. 3, pp. 149-158.




                                         A-1

         Lakin, K. Charlie, Kimm, Christina, Li, Xiaoming. “The Costs of State
Institutions in the United States and Factors Associated with Variability,” University of
Minnesota, Research and Training Center on Residential Services and Community
Living, Institute on Community Integration/UAP.

        Lakin, K.C., White, C.C., Prouty, R. W., Bruininks, R.H., and Kimm, C. (1991).
Medicaid Institutional fICF-MR) and Home and Community Based Services for
Persons with Mental Retardation and Related Conditions (Report No. 35).
Minneapolis: University of Minnesota, Center on Residential Setices and Community
Living.

      Moscovitch, Edward. Mental Retardation Programs: How Does Massachusetts
Compare? Boston, Massachusetts, Pioneer Institute for Public Policy Research, 1991.

       Nerney, Tom, Conley, Ron, and Nisbet, Jan. A Cost Analvsis of Residential
Svstems Seting Persons with Severe Disabilities: New Directions in Economic and
Policv Research. Cambridge, Massachusetts, Human Services Research Institute.

        Smith, Gary A., and Gettings, Robert M. The HCB Waiver Program and
Semites for People with Developmental Disabilities: An U~date. Alexandria,
Virginia, National Association of State Mental Retardation Program Directors, Inc.,
January 1991.




                                          A-2

                             APPENDIX                  B


                                  METHODOLOGY

Sample Selection

Our population included 48 States and the District of Columbia. Wyoming and
Arizona were excluded because they participated in the ICF/MR program for only
part of the 1981 to 1990 period we used for stratification.

For a regression analysis, we stratified States by percent change in number of residents
of all large ICF/MRs (over 15 beds) between 1982 and 1990. We placed each of the
48 States and the District of Columbia in one of three strata.

       1) Large decrease in residents (26% - 78%)
       2) Moderate decrease in residents (1% - 25%)
       3) Increase in residents

By stratifying and then randomly choosing States from each strata, we assured that our

sample included States that are pursuing different policies regarding the size of their

institutions. The amount of decrease in institutional residents reflects differing State

policies on downsizing institutions and increasing community-based care. We obtained

the number of residents in ICF/’MRs from the Recurring Data Set Proj?ct of the

Center for Residential Sexvices and Community Living, University of Minnesota,

K. Charlie Lakin.


We then selected 24 States through random sampling.     Within these States, we

included all large ICF/MRs.


Two States did not respond to our survey questionnaire, reducing the sample from 24

States and 399 large ICF/MRs to 22 States and 380 large ICF/MRs. Of the large

ICF/MRs in the sample, 117 were State-run and 263 were private.


For site visits, we arrayed the 22 sampled States according to percent change in

(1) number of residents between 1982 and 1990, and (2) expenditures for large

ICF/MRs between 1981 and 1988 (latest available data). We placed the States in two

strata based on change in expenditures, We obtained the expenditure data from a

study done by the University Affiliated Program, University of Illinois at Chicago,

Dave Braddock, et.al., 1989.





                                          B-1

The following matrix illustrates the 6 categories (cells) our bracketing created and the
number of sampled 22 States in each cell.


                                   SAMPLING MATRIX
                                           I
                                           I % CHANGE IN ICF/MR RESIDENTS
                                           I
                                               Large   Moderate
                                             Decrease  Decrease    Increase
                                      —-.

      % CHANGE IN             ~
                                  Smaller
                                  Increase       4(
                                                              i3      2
      TOTAL ICF/MR            ~    Larger
     EXPENDITURES             1   Increase            4              5               4
1                                       .-
For our site visits, we then randomly selected one State from each cell, a total of six
States. We selected States this \va} to assure that we visited States that represent
wide differences in expenditure :lnd resident trends. In addition we visited one State
to test our data collection instruments. t’or a total of seven States selected for site
visits.

Data Collection

We collected data from the following t’our sources.

       1)	     The On-line Sumey. Certification and Reporting System (OSCAR)
               maintained by HCFA
       2)      A mail survey of State Jfedicaid agencies
       3)      Interviews with State [Jfficiais in seven States
       4)      Site visits to 15 large ICF ‘\lRs

The OSCAR database contains detailed information on ICF/MRs. These data are
updated at least once a year when a facility is sumeyed for Medicaid recertification.
We compiled a database, using dBase 111+, consisting of variables from the OSCAR
file for all the facilities in our 22 sample States. The variables identified the facilities,
including whether they were private or State-run, and described the residents and the
facilities. We also used existing OSCAR data to create new variables, such as staff-to-
resident ratio.

We compiled a second database !r,~m !hc results of a State sumey. We asked each
State Medicaid agency to answer qucs[l,]ns concerning (1) reimbursement rate for
each facility for State Fiscal Year 1W 1, ( 2) how States set reimbursement rates for
both State-run and private ICF,\fRS. {3 J average wage for direct care workers at
State-run and private ICF/MRs. iind i 4 ) percent of reimbursement for capital,
administration, and State centra office (>verhead allocated to ICF/MRs. ‘When
needed for clarification, we requested that States also send supporting documents

describing their rate-setting methodologies.


Finally, we visited seven States and, using structured guides, intewiewed

Developmental Disabilities program staff, and, in most cases, State Medicaid agency

staff involved in setting ICF/MR rates. We also visited at least one State-run and one

private ICF/MR, where available, in each State, toured the facility, and intewiewed

staff.


Data Ana$wb

To determine the extent of variation in reimbursement rates, we computed each
State’s average rate and compared those across States. We used analysis of variance
to confirm that there was significant variation in rates among States.

To determine causes for variation in rates, we completed a regression analysis. We
constructed and tested a model consisting of 24 independent variables to determine
which variables affect the reimbursement rate (dependent variable).

The independent variables are listed below by three categories. Following each
variable, in parentheses, is an abbreviated title that we used for our regression analysis
described in Appendix C.

       Facility Characteristics

       1)     Size, measured by number of residents (Size)
       2)     Number of discrete living units (# Units)
       3)     Occupancy rate -- number“ beds ‘divided by number residents -- (Occup. )
       4)     Percent of all beds in a facility that are ICF/MR certified (% ICF/MR)
       5)	    Age of facility -- date began participation in the ICF/MR program --
              (Part.date)
       6)     Percent of employees working in direct resident care (% DirCare )
       7)	    Total number of deficiencies on the facility’s last annual Medicaid
              certification smwey (De fies.)
       8)     Total staff-to-resident ratio (StffRes)

       Resident Characteristics

       Percent of residents
       1)     with profound retardation (70ProRtrd)
       2)     over age 65 (%Over 65)
       3)     under age 22 (% Under 22)
       4)     who are blind or cleat’ (7c Bid/Deaf)
       5)     who are nonambulatory (% Nonambu)
       6)     attending off-campus day programs (% DayProgs)
       7)     using medication to control behavior (%onDrugs)


                                          B-3
       State Reimbursement   Policy Factors

       1)     Limits or caps on allowable costs (Caps)
       2)     Efficiency incentive (Incentive)
       3)     Minimum occupancy’ adjustment (OccAdjmt)
       4)     Amount of cost of living adjustment (COLA)
       5)     percentage of total reimbursement for capital expenditures (Capital)
       6)     Percentage of total reimbursement for administration (Admin.)
       7)	    Percentage of total reimbursement for State, central office overhead
              allocated to the ICF/MRs (Overhead)
       8)     Average wage of direct care staff (Wage)
       9)	    Per capita State spending for all services -- total direct general
              expenditures for the State divided by total residents, based on data
              obtained from the U.S. Bureau of the Census, Government Finances,
              Series GF, No. 5, annual -- (PerCapSp.)

Our regression analysis included only State-run facilities. We did not complete a
regression analysis of the private ICF/MRs because many States were unable to
provide data on wages, proportion of reimbursement for capital, administration and
central office costs.

We did not validate the OSCAR database prior to our analysis.

We used a linear regression analysis to determine which of the above variables
significantly affected Medicaid expenditures for ICF/MRs. This method uses the data
from the independent variables to explain variation of the dependent variable. Linear
regression fits a straight line to the data using the method of least squares. Below is
the equation for the general model.


                             Y=po+p1x1+p2x2+.    . .pJk+(3




In this equation, Y, the dependent variable, is the per diem reimbursement rate. The
X’s, the independent variables, are the variables listed above that we included in the
model (the facility and resident characteristics, and State reimbursement policy
factors). The Betas are values calculated as a result of the regression and show the
influence of each factor on the reimbursement rate. The Beta values are reported in
Appendix C under Parameter Estimate. The epsilon represents the residuals, the
difference between the obsewed and the predicted values according to the model.




                                         B-4

                                 APPENDIX                  C


                                   REGRESSION         RESULIX

We used SAS (Statistical Analysis System) software for the regression analysis. The
SAS program eliminates all data for an observation with missing values. We did not
receive complete information for 20 State-run facilities. Therefore, the regression
model was computed using 97 of 117 selected State-run ICF/MRs.

The following table shows the overall regression results of our full model, i.e., with all
24 variables. It includes the estimate, standard error, t-value for all variables and the
significance level (probability > It I). The t-value for each variable tests for the effect
of each independent variable on the dependent variable. The last column gives the
probability of the t-value. The t-values and the associated probabilities (probability >
 It I) test the hypothesis that the parameter is actually zero and answers the question:
If the true slope and intercept were zero, what would the probability be of obtaining,
by chance alone, a value as large or larger than the one actually obtained?

                               STATE FACILITIES FULL MODEL
                   Parameter           Standard                           Probability
 Variable          Estimate             Error                   t-Value        > Itl
 Intercept      -141.94                151.25                   -0.938            0.3511
 Caps             -32.69               20.58                    -1.589            0.1165
 con                  3.11               2.64                     1.177           0.2429
 incentive        -76.82               25.07                    -3.064            0.0031
 OccAdj nk        110.35               27.56                      4.004           0.0001
 Wage                 .003             . 0009                     3.166           0.0023
 Capital            -2.08                3.93                   -0.529            0.5983
 Overhead             3.60               4.16                     0.867           0.3889
 Admin.             -1.84                1.20                   -1.536            0.1288
 Part. date           2.86               1.63                     1.751           0.0843
 PercapSp.             . 003             0.02                     0.136           0.8920
 Def ics.             0.57               0.32                     1.778           0.0797
 Size               -0.01                0.03                   -0.423            0.6737
 # Units            -0.62                0.68                   -0.909            0.3665
 Occup .            -0.04                0.08                   -0.444            0.6581
 glCF/MR              0.57               1.45                     0.391           0.6971
 %Bld/Deaf            1.74             68.51                      0.025           0.9798
 %DayProgs        -21.18               34.52                    -0.614            0.5414
 %onDrugs         -14.82               35.82                    -0.414            0.6802
 %ProRtrd         -17.53               26.14                    -0.670            0.5048
 Stff:Res           30.04              10.34                      2.904           0.0049
 %DirCare           -2.76              29.13                    -0.095            0.9248
 %Undr22          -30.71               38.70                    -0.794            0.4300
 %Over65              1.60             54.12                      0.030           0.9765
 %Nonambu           14.23              16.17                      0.880           0.3817




                                                c-1
The R-square term indicates the percentage of the variation explained by the model.
The R-squared value and adjusted R-squared values of.80 and .73, respectively,
indicate that 73 percent of the variation in per resident reimbursement rate in State-
run facilities is explainedby the full model.

Redllced mudt?l

Next, we performed astepwise regression in order to find the model which explains
the greatest amount of the variation in the dependent variable with the fewest number
of independent variables. Most variables that-were statistically significant in the full
model were also significant in the stepwise regression, However, in the regression
model building process, the statistical significance of the independent variables may
change in the reduced model. The following table shows the results of the stepwise
regression. As shown in this table, all eight independent variables in our reduced
model were statistically significant at the .01 level. We examined the residuals and
found that they were normally distributed.

of the 24 independent variables, only the following 8 variables were statistically
significant. These 8 variables explain 75 percent of the variation in the dependent
variable. The regression model producedan R-squareof .77and an adjusted           R­
squareof .75.

                      STATE FACILITIES REDUCED            MODEL



                  Parameter      Standard                             Probability
 Variable         Estimate        Error                  t value        > ;t~
 Intercept -198.19                122.10                  -1.62           .1081
 Caps       -33.16                  13.20                 -2.51           .0138
 Incentive  -88.59                  19.95                 -4.44           . 0001
 OccAdjmt   145.89                  17.69                  8.25           .0001
 Wage       0.0026                0.0006                   4.28           .0001
 Overhead       7.70                 2.54                  3.04           .0031
 Admin.       -3.01                  0.87                 -3.47           .0008
 Part. date     3.55                 1.40                   2.54          .0129
 Stff:Res.    26.05                  6.95                   3.75          .0003




                                            c-2
                          APPENDIX                  D


                           SAVINGS CALCULATION

COST CONTROLS

1.   From our sample, we determined that 73 percent of residents in State-run
     ICF/MRs are in States where the rate-setting methodology does not include
     caps on costs.

2.   Based on data from the Recurring Data Set Project, there were 77,281
     residents in all State-run large lCF/MRs in 1990.

3.   77,281 residents x 73 percent = 56,415 residents are in State-run large
     ICF/MRs in States without c:]ps.

4.   The regression results sh{~wcd th:lt, controlling for all other variables in our
     model, States that applied c:ips In their rate-setting methodologies had
     significantly lower per die m r:ltes. The cumulative effect of caps over time was
     a reduction in the per diem rate of $33.16 per resident on average, or $12,103
     per year per resident.

5.   If all States that did not cap allowable costs in 1991 had implemented caps at
     the same time intervals as those with caps, then the Medicaid savings, Federal
     and State shares combined. in 1991 would have been $683 million (56,415
     residents x $12,103 per resident).

FEDERAL   PER CAPITA LIMIT


1.   From our sample, we listed lhe average annual reimbursement per resident in
     large State-run ICF/MRs in 1W 1 for each of the 22 sampled States.

2.   We selected the overall average annual rate of reimbursement for all large
     ICF/MRs, $61,000, as the per capita limit. HCFA may select other ways of
     determining a per capita IImlt.

3.   We subtracted the per caplI;I Ilmlt from each State’s 1991 average annual
     reimbursement for large St:ltc-run [CF/MRs to determine the amount each
     State exceeded the liml~. Stiltes with average per capita reimbursement below
     the limit would not hale been subject to the limit; therefore, they were not
     included in this calculation.

4.   We then multiplied the amount each State exceeded the limit by the number of
     ICF/MR residents in the State :~nd determined the savings would have been
     $565 million in 1991.


                                        D-1
APPENDIX       E

 AGENCY COMMENTS




      E-1
                                          m3      5B93



    TO:	         Bryan B. Mitchell

                 Principal Deputy Inspector General

    FROM :       Acting Assistant         Secretary          for   Planning        and   Evaluation

    SUBJECT :	 OIG Draft Report: “Medicaid Payments to Institutions

               for Mentally Retarded People,” OEI-O4-91-O1O1O --

               CONCUR WITE COMKENTS



    I am pleased to have the opportunity to comment on your recently

    completed study “Medicaid Pa~ents to Institutions for Mentally

 Retarded People.” Your staff has worked closely with ASPE in the

design of this study and I hope that we will be able to continue

    such collaborative      efforts in the future.


    I would also like to commend your staff for taking on such a

    methodologically complex task. The findings are very important

    and we appreciate their good work.


,   COMMENTS
    Primarv Comment


    In our original discussions with your staff, we proposed that you

    analyze the extent and causes of variations in the costs of large

    ICFs/MR and compare them to the costs of serving people with

    mental retardation in community-based residential settings funded

    under the Medicaid waiver program. Because the focus of the

    actual study was limited to large ICFs/MR, the policy implica­

    tions tend to focus on strategies for limiting the cost of these

    types of facilities. Yet, as you point out in the report, large
    state institutions are becoming anachronistic as a way of
    providing services to people with mental retardation and there is

    widespread agreement that small community-based residential

    arrangements are superior settings for virtually everyone

    regardless of their level of disability.


    In addition, recommending that HCFA take action to reduce ICF/MR
    spending could appear to some readers of the report as an
    unfounded attempt to reduce spending on behalf of a population

    that receives a relatively small percentage of total Medicaid

    spending. That is, while ICF/MR  per capita expenditures are
    high,  and   while   ICF/MR   costs     are    several         times      higher     than
    community    MR/DD Medicaid costs, spending on behalf of other
 Page   2   -   Bryan   B. Mitchell

 populations far exceeds MR/DD spending. I do not believe the

 intent of this report was to reduce total federal spending on

 behalf of people with mental retardation.            -.

I think the repoti would be strengthened if it straightforwardly

acknowledged right up front some of these issues and dilemmas.

For example, it should point out that there is widespread

agreement in the MR/DD field that people with mental retardation

are better off in community settings rather than in institutions.

It should also point out that in spite of some steps such as the

waiver program and the new Community Supported Living

Arrangements program in Medicaid, Medicaid expenditures go

overwhelmingly to support large scale institutions. It should

also acknowledge that the scope of this report had to be limited

to a study of institutions although it would have been desirable

to do the comparisons with community settings originally

contemplated. Finally the report should state that although the

findings of the study largely focus on short term ways to control

reimbursement to large institutions, comprehensive reform of
federal MR/DD policy is required to align it with what we know
dbout the best way to provide services to people with mental
retardation. The report should also acknowledge the fact that
the evolution of ICF/MR policy has resulted in some perverse
incentives     for      state  offi.ci.als    to over-rely      on ICF/MR
reimbursements          in order     to buy   flexibility      on the community        side
of the equation.

Other Comments


1.	     It would be useful to include statistics                       comparing   the
        proportion        of total      Medicaid    dollars      spent    on large   ICFs/MR
        and on community           residential      settings.        Such comparisons
        could     be drawn using         the work of Charlie           Lakj.n and Dave
        Braddock.         The report       should   also     compare    the number     of
        people     residing      in large      ICFs/MR with the number of persons
        receiving       community       based    MR/DD services.

2.	    “People First” language should be used throughout the
       report, consistent with efforts by Congress and the
      “Administration to use such language. In particular, the

       report should refer to “people with mental retardation’t

       rather than “the mentally retarded,~~or “mentally retarded

       people.tt

3.	     In explaining ‘!Whois Served in ICF/MRs” in the
        Introduction, the authors use definition of “developmental
        disability” contained in the Developmental Disabilities and
        Bill of Rights Act. Since Title XIX defines ICF/MR

        eligibility in terms of people with ~’mentalretardation and

        related conditions,” and Medicaid guidelines define that

        phrase, it would be more clear to explain “who is served in

        ICF/MRs” in terms of ICF/MR eligibility guidelines.

Page   3   -   B~~a~   B.   Mitchell

4.	    In the section on “Trends,” it is confusing to say that

       federal program policy encourages treatment in community

       settings. It is much more accurate to say that the federal

       DD Act goals for people with mental retardation which

       promote productivity, independence and community integration

       are in conflict with federal financing policy under the

       Medicaid pro~am which continues to be biased in favor of

       institutional care (as you explain when you talk about

       limits on the munber of people served under the HCB

       waivers) .

5.	    In the section on “Methodology,” it is not clear whether you
       interviewed staff of State MR/DD agencies, developmental
       disability councils or both.
6.	    Regarding l~Qualityand Level of Service,” the point should

       be made that compliance with the ICF/MR standards ensures

       only a minimal level of quality. It is very difficult to

       measure quality of life and service outcomes, even in the

       relatively controlled environment of an institution.


If you have questions or concerns, please contact Mary Harahan,

Acting Deputy Assistant Secretary for Family, Community and Long-

Term Care Policy at 690-6443.





cc:	 William Toby, Jr.

     Acting Administrator

     Health Care Financing Administration


       Elizabeth M. James

       Acting Assistant Secretary for

       Management and Budget

    .
                _-.wr, ,,                                                                        Health   Care
           ***          ~,
                             DEPART,MENTOFHEALTH
              Jg
,. ,’    �.                                               & HUMAN   sERVsCES                     Financing   Admlnistratmn
        :
        :-.
                                                    --                 . —..    .
          %
            ‘+
              %<V%,.                                                                            Memorandu=
               >


                                                   r \              ~R~b 1993
               Date
                             ~- iHiam Toby~ r.
                                                6&k  ,/      “
               From
                              Acting Administrator

                Sub)ect       Office of Inspector General(OIG)DraftReport:“Medicaid
                                                                                  Paymentsfor

                              InstitutionsforMentally         People”C)EI-O4-9I-O1O1O

                                                      Retarded

                To	
                              BryanB.Mitchell
                                     DeputyXnspector

                              principal           General


                                  We havereviewedtheabove-referenced
                                                                  draft
                                                                      reportwhichattempts to

                                      theextent
                              determine       andcauses ofvariation         inpx resident
                                                                 among States             Medicaid
                              reimbursement   forlarge
                                          rates                            forthementally retarded
                                                                carefacilities

                                                      intermediate
                              (lCF~R).

                                   OIG found that Medicaid reimbursement rates for large ICFS/MR are more
                              than five times greater in some States than in others. State polici* rather than
                              quality
                                    ofservice,facility
                                                     characteristi~ or‘residentdemographics, account
 for

                                     inICF/MR Medicaid
                              variation                   reimbursement   ratesamong States.  As a result

                                                                                                         of

                              thefinding%
                                        OIG recommendsthattheHealthCareFinancing
         Administration

                              (HCFA) takeaction to reduce excessive spending of Medicaid funds for ICFs/MR.

                                    We must nonconcur with the recommendation.     Medicaid’s statutory provisions
                              allow States to establish their own payment systems. This flexibility allows for the
                              variation among States in their payment rate% meth~     and standards used in
                              determining these rates.

                                      States are free, within two mnstrati~   to establish their methods and standards
                              fordetermining     ICF/MR ratesThe rninimurn       limit  isthattheratepaidmust be, as
                              required by section WOE                of the ~ial   Security Am reasonable and
                              adequate to meet the costs incumed by efficiently and economically operated
                              facilities. The maximum limit is that aggregate payments may not exceed the
                              amount that would have been paid using the Medicare principles of reimbursement.
                              The State must provide an assurance to the Secretary that its rates are consistent
                              with the upper limit requirements at 42 CFR 447.272. ‘I’heregulation also requires
                              States to provide this assurance for State-operated facilities
        Page 2 =Principal Deputy Inspector General

             ‘Xlerefore, the statute and implementing regulations thatgovern
                                                                           Medicaid
        payments toICFs/MR, allow HCFA little discretion in imposing additional
        administrative controls to curb ICF/MR payments. Legislative action would be
        necessary to implement the mandato~ cost controls contained in the
        recommendation. Furthermore, any new legislation should be considered within the
        national health care reform framework being developed by the new administration.

             Thank you for the opportunity to review and comment on this draft report.
        Please advise us if you agree with our position on the report’s recommendation at
        your earliest convenience.
    .




,
:es
                              oFFK35
                                   OFIIW3PECrOR

                                             GENEW

The mission  oftheOfficeofXnspector
                                  General
                                        (OIG),asmandatedbyPublic
                                                               Law 95-452,
                                                                         as

    amended,toprotect
           is                  oftheDepartment
                     theintegrity             ofHealthandHuman Services’

                                                                      (HHS)

    programs
           aswellasthehealth         ofbeneficiariesbythose
                            andwelfare           served              This

                                                            programs.

           mission
    statutoxy    iscarried
                         outthroughanationwide
                                            networkofaudits,         and

                                                          investigations,

    inspections      bythree
             conducted                  components:
                            OIG operating                 ofAudit

                                                  theOffice      *ME% the

         ofInvestigations,
    Office             andtheofficeofEduationandhmpections.          informs

                                                          TheOIG also

               ofHHS ofprogram,
    theSecretary               andmanagementproblems,
                                                    andrecommendscourses

                                                                       to

          them.

    correct


                                   OFFICE OF AUDIT         SERVICES

    The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
    conducting audits with its own audit resources or by overseeing audit work done by others.
    Audits examine the performance of HHS programs and/or its grantees and contractors in
    carrying out their respective responsibilities and are intended to provide independent
    assessments of HHS programs and operations in order to reduce waste, abuse, and
    mismanagement and to promote economy and efficiency throughout the Department.

                                   OFFICE   OF INVESTIGATIONS

    The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
    investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
    unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
    administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
    control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                  OFFICE           OF EVALUATION         AND      INSPE~ONS

    The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
    program evaluations (called inspections) that focus on issues of concern to the Department,
    the Congress, and the public. The findings and recommendation contained in these inspection
    reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
    and effectiveness of departmental programs.

    This report was prepared in the Atlanta regional office under the direction of Jesse J. Flowe~,
    Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
    Project staffi

    REGION

    RuthReiser,
             Project

                  Leader

    ‘aureen‘UK b

    P\\\\

       %\




                                                          h 1! !ka!f’edesco

                                                           W. MarkKrushat,

                                                                        SC.D.

                                                                hfos~e

                                                           Linda


     Foradditional   Coniec   -r   “

\    41ftQ
